t

'

vV

.*■

No.

IN THE
SUPREME COURT OF THE UNITED STATES

In Re: Richard DeCaro - Petitioner

PETITION FOR AN EXTRAORDINARY WRIT AUTHORIZED BY 28 U.S.C. §1651(a)
PETITIONER'S APPENDICES

Richard DeCaro, 24317-044
Federal Correctional Institution
Post Office Box 6000
Florence, Colorado 81226
719.784.9100

fc:

,*

;•/

APPENDIX ”A"

*■■■'

*->

United States of America, Appellee, v. Daniel Basile, Appellant. United States of America,
Appellee, v. Richard DeCaro. Appellant.
UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT
109 F.3d 1304; 1997 U.S. App. LEXIS 6123
No. 96-2744, No. 96-2746
January 16,1997, Submitted
April 1, 1997, Filed
Editorial Information: Subsequent History
As Corrected April 10, 1997. Rehearing and Suggestion for Rehearing En Banc Denied (96-2746) May
9, 1997, Reported at: 1997 U.S. App. LEXIS 10833. Certiorari Denied October 6,1997, Reported at:
1997 U.S. LEXIS 5509. Certiorari Denied October 6, 1997, Reported at: 1997 U.S. LEXIS 5408.
Editorial Information: Prior History
)
Appeals from the United States District Court for the Eastern District of Missouri. 1:96CR5 SNL.
Honorable Stephen Limbaugh, District Judge.
Disposition:
Affirmed.
Counsel

Counsel who presented argument on behalf of the appellant Basile, was
Thomas F. Flynn, Federal Public Defender, of St. Louis, Missouri. Counsel who presented
argument on behalf of the appellant, DeCaro. was N. Scott Rosenblum, of St. Louis,
Missouri. Susan Kister appeared on the brief.
Counsel who presented argument on behalf of the appellee was
Thomas E. Dittmeier of St. Louis, Missouri.
Judges: Before BOWMAN and MURPHY, Circuit Judges, and KYLE, 1 District Judge.
CASE SUMMARY
PROCEDURAL POSTURE: Defendants sought review of the order from the United States District Court
for the Eastern District of Missouri, which entered verdicts convicting them for murder-for-hire,
conspiracy to commit murder-for-hire, and mail fraud.Defendants' double jeopardy rights were not
violated as the doctrine of dual sovereignty applied, the defenses were not so antagonistic as to require a
severance, and the required nexus between interstate commerce and the crime was established.

ft

OVERVIEW: Defendants were convicted by a jury for murder-for-hire, conspiracy to commit
murder-for-hire, and mail fraud. On appeal, defendants contended that the federal prosecution was a
violation of their rights under the Double Jeopardy Clause of the U.S. Constitution, that the district court
abused its discretion in denying their motions for separate trials, and that there was insufficient evidence
that interstate facilities were used in furtherance of the murder-for-hire scheme. The court held that (1)
under the tenets of dual sovereignty each sovereign derived its power from a different constitutional
source, so both sovereigns might have prosecuted and punished the defendants for the same act, (2) the
defenses of defendants were not so antagonistic as to be irreconcilable and that defendants did not meet
their heavy burden of demonstrating the prejudice required for reversal, and that (3) the insurance
transactions involving the stolen vehicle and items taken from one defendant's van and home provided

A08CASES

1

©2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of die Matthew Bender Master Agreement.

i

1»

the required nexus between the mail in interstate commerce and the murder-for-hire to sustain
defendants' conviction. The court affirmed the convictions.
OUTCOME: The court affirmed the order from the district court convicting defendants.
LexisNexis Headnotes
Criminal Law & Procedure > Double Jeopardy > Dual Sovereignty Doctrine
Under the doctrine of dual sovereignty federal prosecution following state prosecution of the same
person for the same acts does not violate the defendant’s criminal rights. According to the tenets of dual
sovereignty, each sovereign derives its power from a different constitutional source, so both may
prosecute and punish the same individual for the same act.
Criminal Law & Procedure > Double Jeopardy > Attachment Jeopardy
Criminal Law & Procedure > Double Jeopardy > Dual Sovereignty Doctrine
A state prosecution will be deemed unconstitutional when the state prosecution was a sham and a cover
for a federal prosecution, and thereby in essential fact another federal prosecution.
Criminal Law & Procedure > Double Jeopardy > Dual Sovereignty Doctrine
A United States attorney may not prosecute a person in federal court if the alleged criminality was an
ingredient of a previous state prosecution against that person unless the federal prosecution is
specifically authorized in advance by the Department of Justice itself, upon a finding that the prosecution
will serve compelling interests of federal law enforcement.
Criminal Law & Procedure > Pretrial Motions > Joinder & Severance > Severance of Defendants
Criminal Law & Procedure > Appeals > Standards of Review > Abuse of Discretion > General
Overview
The appellate court will not reverse a denial of a motion to sever unless it finds that the denial of
severance was an abuse of discretion resulting in "severe or compelling prejudice" to the accused.
Criminal Law & Procedure > Pretrial Motions > Joinder & Severance > Severance of Defendants
Criminal Law & Procedure > Criminal Offenses > Inchoate Crimes > Conspiracy > Elements
There is a preference in the federal system for joint trials of defendants who are indicted together. A joint
trial is especially compelling when the defendants are charged as co-conspirators. But whether or not the
codefendants also are charged as co-conspirators, the presumption against severing properly joined
cases is strong.
Criminal Law & Procedure > Pretrial Motions > Joinder & Severance > Severance of Defendants
Mutually antagonistic defenses are not prejudicial per se, and even blame- shifting on the part of the
defendants is not a sufficient reason for severance. Co-defendants are often hostile to one another, and
one will try frequently to point the finger, to shift the blame, or to save himself at the expense of the
other. Such tactics rise to the level of antagonistic defenses requiring severance only when there is a
danger that the jury will unjustifiably infer that this conflict alone demonstrates that both are guilty.
Criminal Law & Procedure > Pretrial Motions > Joinder & Severance > Severance of Defendants

A08CASES

. 2

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

*

'•v.

To demonstrate the severe or compelling prejudice necessary to show that the court abused its discretion
in denying severance, a defendant must show that his defense was irreconcilable with that of the
codefendant or that the jury was unable to compartmentalize the evidence.
Criminal Law & Procedure > Appeals > Standards of Review > Substantial Evidence
The appellate court views the evidence in the light most favorable to the guilty verdict, giving the
government the benefit of all reasonable inferences that may be drawn from the evidence. After
reviewing the evidence under these standards, it will reverse only if it concludes that no reasonable jury
could find guilt beyond a reasonable doubt. The court may affirm even if the evidence is entirely
ci rcumstantian
~~
Criminal Law & Procedure > Criminal Offenses > Fraud > Mail Fraud > General Overview
Criminal Law & Procedure > Criminal Offenses > Homicide > Solicitation of Murder > General
Overview
Criminal Law & Procedure > Criminal Offenses > Homicide > Solicitation of Murder > Elements
See 18 U.S.C.S. § 1958(a).
Opinion
Opinion by:

BOWMAN
Opinion

(109 F.3d 1306} BOWMAN, Circuit Judge.
Richard DeCaro and Daniel Basile appeal from the judgments of the District Court 2 on jury verdicts
finding them guilty on charges of murder-for-hire, conspiracy to commit murder-for-hire, and mail
fraud. We affirm.
I.
This case arises from the execution-style murder of Elizabeth DeCaro. wife of Richard DeCaro. on
March 6, 1992. She was found shot to death that Friday night in the kitchen of her home in St.
Charles, Missouri (a suburb of St. Louis), the gun barrel having been pressed up against the back of
her neck and fired twice. Her husband, who recently had been having an extramarital affair with his
secretary, had taken the couple's four children (and the family dog, which was not known to travel
with the family because it was very excitable around strangers) to the Lake of the Ozarks in south
Missouri for the weekend. He had told Elizabeth that he wanted a "daddy's weekend" alone with the
children. DeCaro and the children left St. Charles shortly after noon on March 6, while Elizabeth was
still at work. Later that afternoon, Elizabeth was murdered and the family's Blazer was stolen from
the garage of the home. These incidents followed by about a month the theft of the family van from
the DeCaro home in the early morning hours of February 8,1992; the van was found in southeast
Missouri and had been burned. DeCaro reported that various items were missing from the van,
including the garage door opener for the DeCaro home.
A few days after the murder, first Basile and then DeCaro were arrested on state charges of murder.

A08CASES

3

©2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

'+

In May 1994, Basile was tried as the hit man, was convicted, and was sentenced to death. His direct
appeal in the state proceeding has been submitted to the Missouri Supreme Court. In a separate trial
in September 1994, DeCaro was acquitted on state murder charges.
In May 1995, a federal grand jury indicted Basile and DeCaro on murder-for-hire and mail fraud
charges. Specifically, both men were charged with use of the mail or facilities in interstate commerce
with intent to commit murder-for-hire, 18 U.S.C. § 1958 (1988 & Supp. IV 1992); conspiracy to
commit murder-for-hire, 18 U.S.C. §§ 1958, 371 (1988 & Supp. IV 1992); and mail fraud, 18 U.S.C. §
1341 (Supp. IV 1992). 3 After a joint jury trial both men were found guilty of all charges against them
and each was sentenced to life in prison.
DeCaro and Basile both raise the same three issues on appeal. They claim this federal prosecution,
following as it did the state prosecution, is a violation of their rights under the Double Jeopardy
Clause of the Constitution. They also argue that the District Court abused its discretion in denying
their motions for separate trials. Finally, both challenge the court's denial of their motions for
judgment of acquittal, and contend that there was insufficient evidence that interstate facilities were
used in furtherance of the murder-for-hire scheme.

DeCaro and Basile argue that they were twice put in jeopardy for the same crime in violation of their
constitutional rights, see U.S. Const, amend. V, and that the District Court erred in refusing to
dismiss the indictment on those grounds. We review de novo. See United States v. McMasters, 90
F.3d 1394, 1401 (8th Cir. 1996), cert, denied, 117 S. Ct. 718, 783 (1997).
A.
It has long been the law under the doctrine known as dual sovereignty that federal prosecution
following state prosecution {109 F.3d 1307} "of the same person for the same acts" does not violate
the defendant’s criminal rights. Abbate v. United States, 359 U.S. 187, 194, 3 L. Ed. 2d 729, 79 S.
Ct. 666 (1959); see also United States v. Halls, 40 F.3d 275, 277-78 (8th Cir. 1994), cert, denied, 131
L. Ed. 2d 579, 115 S. Ct. 1721 (1995). According to the tenets of dual sovereignty, each sovereign
derives its power from a different constitutional source, so both may prosecute and punish the same
individual for the same act. See Abbate, 359 U.S. at 193-94. Basile acknowledges that his federal
convictions "do not appear to offend the double jeopardy clause of the Fifth Amendment under
current Supreme Court law." Brief of Basile at 31. DeCaro. on the other hand, would have this Court
decide that, because federal prosecution for the murder of Elizabeth DeCaro followed his acquittal
on state charges for the same act, "the purpose [of the federal prosecution] is improper and the
prosecution should be quashed." Brief of DeCaro at 43. We disagree.
The Supreme Court has created an exception to the dual sovereignty doctrine, concluding that a
state prosecution will be deemed unconstitutional when "the state prosecution was a sham and a
cover for a federal prosecution, and thereby in essential fact another federal prosecution." Bartkus v.
Illinois, 359 U.S. 121, 124, 3 L. Ed. 2d 684, 79 S. Ct. 676 (1959). Here DeCaro argues the converse:
that the federal government was used as a "tool" by state prosecutors after the state prosecution of
DeCaro failed, in order to advance a state interest--the conviction of DeCaro for the murder of his
wife--where the state could not legally do so itself. See United States v. Talley, 16 F.3d 972, 974 (8th
Cir. 1994). As a legal proposition, DeCaro's claim requests an extension of Bartkus, but he directs us
to no opinion wherein this Court has held that the Bartkus exception applies when it is the federal
prosecution that follows the state prosecution. We acknowledge, however, that other panels of this
Court have assumed, without squarely deciding, that a Bartkus-type exception applies to a situation
such as we have here. See, e.g., United States v. Williams, 104 F.3d 213, 216 (8th Cir. 1997); Halls,

A08CASES

4

© 2019 Matthew Bender & Company, Inc,, a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions ofthe Matthew Bender Master Agreement.

40 F.3d at 278.
Because the question was not briefed and argued, and because it is not necessary to our holding
today, we do not decide how far Bartkus may be extended. For even if DeCaro's claim properly is
regarded as falling within the Bartkus exception to the dual sovereignty doctrine, the claim fails for
lack of factual foundation. DeCaro has not directed this Court to anything in the record that supports
his claim of collusion between the two sovereigns. Indeed, his claim is based on little more than
chronology: he was acquitted on state charges, and then later he was tried on federal charges arising
from the same events. But it would take far more than mere chronology of this sort to render the
federal government a "tool" of the state, or the federal prosecution "a sham and a cover" for a de
facto state prosecution.
DeCaro further asserts that the federal prosecution must have been manipulated by the state
because the prosecution was for "an unremarkable case of spousal murder" and "a garden variety
contract killing" with "questionable" federal interest. Brief of DeCaro at 44. We disagree. While
contract killing, standing alone, may not be a federal crime, it may become such when its
perpetration involves the use of the mail or facilities in interstate commerce. The independence and
importance of the federal interest in protecting the channels of interstate commerce from the taint of
crime is unaffected by DeCaro's previous acquittal in state court; it remains just as important and
worthy of vindication after the state trial as it was before. "The federal government had an interest,
independent of any state interest, to ensure that an individual who is believed to have violated a
federal statute is prosecuted for that violation." Talley, 16 F.3d at 974.
We hold that the dual sovereignty doctrine is fully applicable in this case and that DeCaro's double
jeopardy claim therefore lacks merit.
B.
Both DeCaro and Basile argue that the United States Attorney in this case nevertheless {109 F.3d
1308} violated the constitutional prohibition against double jeopardy by failing to follow an internal
United States Department of Justice (DoJ) policy concerning duplicative and successive prosecution
by the federal government. Known as the Petite policy for the case wherein the Supreme Court first
described it, see Petite v. United States, 361 U.S. 529, 531, 4 L. Ed. 2d 490, 80 S. Ct. 450 (1960)
(per curiam), it "was formulated by the Justice Department in direct response to" the opinions in
Bartkus and Abbate, Rinaldi v. United States, 434 U.S. 22, 28, 54 L. Ed. 2d 207, 98 S. Ct. 81 (1977)
(per curiam). Under the policy, a United States attorney may not prosecute a person in federal court
"if the alleged criminality was an ingredient of a previous state prosecution against that person"
unless the federal prosecution "is specifically authorized in advance by the [DoJ] itself, upon a
finding that the prosecution will serve 'compelling interests of federal law enforcement."' Thompson
v. United States, 444 U.S. 248, 248, 62 L. Ed. 2d 457, 100 S. Ct. 512 (1980) (per curiam). DeCaro
and Basile argue that the federal government had no "compelling interests” to be served here.
We are not convinced that the federal prosecution in this case failed to meet the "compelling
interests" requirement of the Petite policy. We need not and do not decide the question, however,
because the Petite policy is "not constitutionally mandated," Rinaldi, 434 U.S. at 29, and otherwise
"confers no substantive rights on the accused," United States v. Moore, 822 F.2d 35, 38 (8th Cir.
1987) (per curiam). Thus the DoJ's implementation of the policy "cannot form the basis of a claim [by
a defendant] that the prosecution was improper." United States v. Lester, 992 F.2d 174, 176 (8th Cir.
1993). Further, if subsumed in the defendants' argument is the contention that the DoJ improperly
waived the policy here, we are without authority to review such a DoJ decision "because the Petite
policy is an internal administrative policy." United States v. Kummer, 15 F.3d 1455, 1461 (8th Cir.

1994).

A08CASES

5

© 2019 Matthew Bender & Company, Inc., a member of the LexisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

Notwithstanding this Court's continuing affirmation that review of alleged DoJ Petite policy violations
is not available unless sought by the government itself, DeCaro and Basile argue that we should
revisit the issue and adopt the reasoning of a concurrence in an Eighth Circuit opinion that predates
all of the cases cited above. See Delay v. United States, 602 F.2d 173, 179 (8th Cir. 1979) (Heaney,
J., concurring) (suggesting that Petite policy "should be enforceable by a defendant in an appropriate
case"), cert, denied, 444 U.S. 1012, 62 L. Ed. 2d 641, 100 S. Ct. 660 (1980). It is clear, however, that
this is not the direction in which the Court is headed. See, e.g., Kummer, 15 F.3d at 1461 (opinion of
the Court by Heaney, J.). And in any event, as a panel we are without authority to overrule
precedents established by other panels of this Court; that can be accomplished only by the Court
sitting en banc. See United States v. Knight, 96 F.3d 307, 310 (8th Cir. 1996).

DeCaro and Basile also argue that the District Court erred in denying their motions for severance of
their trials. 4 We will not reverse on this ground unless we find that the denial of severance was an
abuse of discretion resulting in "severe or compelling prejudice" to the accused. United States v.
(109 F.3d 1309} Melina, 101 F.3d 567, 571 (8th Cir. 1996) (quoting United States v. Koskela, 86
F.3d 122, 126 (8th Cir. 1996)).
"There is a preference in the federal system for joint trials of defendants who are indicted together."
Zafiro v. United States, 506 U.S. 534, 537, 122 L. Ed. 2d 317, 113 S. Ct. 933 (1993). A joint trial is
especially compelling when the defendants are charged as co-conspirators, as is the case here. See
United States v. Warfield, 97 F.3d 1014, 1018 (8th Cir. 1996), cert, denied, 117 S. Ct. 1119 (1997);
Koskela, 86 F.3d at 126. But whether or not the codefendants also are charged as co-conspirators,
"the presumption against severing properly joined cases is strong." United States v. Delpit, 94 F.3d
1134, 1143 (8th Cir. 1996). DeCaro and Basile claim, however, that they presented antagonistic
defenses, so that trying them together was an abuse of the trial court's discretion and resulted in the
necessary prejudice to each to warrant new trials. We disagree.
In the first place, we are not persuaded that the two defenses are properly characterized as
antagonistic. DeCaro. who testified at the trial, claimed he hardly knew Basile, and denied any
participation in the vehicle thefts or the murder. His strategy was to cast blame on Craig Wells, who
was an employee at the Amoco station where DeCaro worked as service manager and who is a
relative--of sorts—of Basile. 5 In support of his theory that Wells may have been involved, DeCaro
adduced testimony that Wells had access to the DeCaro vehicle keys and that Wells was a known
liar. DeCaro claimed Wells knew of DeCaro's plans to be out of town on the day of the murder, and
there was testimony from one of DeCaro's witnesses that Wells was not at work at the station during
the time when the murder may have been committed. The jury could have drawn the inference that
Wells and Basile were the co-conspirators, instead of DeCaro and Basile, with DeCaro making the
case against Wells and the government making the case against Basile. But it is clear from the
transcript that DeCaro's counsel did not assume a role as prosecutor by attempting to prove Basile
guilty of the crimes charged. We do not suggest that DeCaro presented a defense to the
government’s case against Basile, but he made no concerted effort to depict Basile as the
perpetrator of the crimes with which DeCaro himself was charged, to the exclusion of all other
possible suspects.
As for Basile, a defense theory was not apparent from the witnesses he called. Basile did not testify
in his own defense and called only two witnesses, both of whom were emergency medical personnel
who attended Elizabeth DeCaro at the murder scene and testified as to her condition. But Basile and
DeCaro claim that Basile did have a "defense," and that it was laid out by Basile's counsel in his
opening statement and closing argument. In his comments to the jury, counsel conceded that Basile

A08CASES

6

© 2019 Matthew Bender & Company, Inc., a member ofthc LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

stole the DeCaro vehicles, but he argued against the prosecution theory that Basile murdered
Elizabeth DeCaro, whether with or without the collusion of her husband. It is clear, however, that
during the evidentiary portion of the trial, Basile conceded nothing. From the trial transcripts it is
apparent that Basile's counsel closely cross-examined the witnesses called by DeCaro. including
DeCaro himself, as well as those witnesses called by the government, primarily to undermine the
government's case as to Basile's involvement in the murder, not to point an accusing finger at
DeCaro.
But even if DeCaro's and Basile's defenses were mutually antagonistic, we would not send the case
back to the District Court for new trials. "Mutually antagonistic defenses are not prejudicial perse,"
Zafiro, 506 U.S. at 538, and even blame- shifting on the part of the defendants "is not a sufficient
reason for severance," United States v. Bordeaux, 84 F.3d 1544, 1547 (8th Cir. 1996).
"Co-defendants are often hostile to one another, and one will try frequently to{109 F.3d 1310} 'point
the finger,' to shift the blame, or to save himself at the expense of the other." Delpit, 94 F..3d at 1143.
Such tactics rise to the level of antagonistic defenses requiring severance "only when 'there is a
danger that the jury will unjustifiably infer that this conflict alone demonstrates that both are guilty."'
Id. (citations to quoted cases omitted) (emphasis in Delpit). Any conflict in the evidence presented at
this trial does nothing of the kind, but simply is indicative at most that each defendant was attempting
to save his own skin by diverting the jury's attention to the other.
To demonstrate the severe or compelling prejudice necessary to show that the court abused its
discretion in denying severance, "a defendant must show that his defense was irreconcilable with
that of the codefendant or that the jury was unable to compartmentalize the evidence." Bordeaux, 84
F.3d at 1547. As demonstrated by our discussion above, we do not believe that the defenses of
DeCaro and Basile (to whatever extent Basile actually put on a defense) were so antagonistic as to
be irreconcilable. Because there was no serious finger-pointing by the defendants toward one
another during the evidentiary phase of the trial, notwithstanding some desperation blame-shifting by
counsel in closing arguments, the jury in its deliberations might have bought into DeCaro's defense,
or Basile's "defense," or both~or neither. Further, having reviewed the entire transcript, we are
satisfied that the jury could not have had any difficulty compartmentalizing the evidence against
each defendant. There were only two defendants, the charges varied little between DeCaro and
Basile and were not complicated, and the issues were not complex. We conclude that neither
DeCaro nor Basile has met his heavy burden of demonstrating the prejudice required for reversal.
See United States v. McGuire, 45 F.3d 1177, 1187 (8th Cir.), cert, denied, 115 S. Ct. 2558 (1995). 6

IV.
Both DeCaro and Basile argue that the evidence was insufficient to prove the necessary'interstate
activity to support federal charges and that the District Court therefore erred in denying their motions
for acquittal. DeCaro and Basile do not claim that the evidence was insufficient to prove that DeCaro
hired Basile to murder Elizabeth DeCaro. nor do they challenge the mail fraud convictions related to
the filing of insurance claims. Instead, their sufficiency argument is limited to the issue of whether
the government proved the requisite connection between the use of the mail or facilities in interstate
commerce and the murder-for-hire plot.
"Our standard of review on this issue is quite narrow." United States v. Smith, 104 F.3d 145, 147 (8th,
Cir. 1997). We view the evidence in the light most favorable to the guilty verdict, giving the
government the benefit of all reasonable inferences that may be drawn from the evidence. After
reviewing the evidence under these standards, we will reverse only if we conclude that no
reasonable jury could find guilt beyond a reasonable doubt. We may affirm even if the evidence is
entirely circumstantial. See id.

A08CASES

7

© 2019 Matthew Bender & Company, Inc., a member of die LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and leans and conditions of the Matthew Bender Master Agreement.

i

‘ t %

stole the van, testified that the theft was an "insurance scam" and that,.during the course of their
time together that night, she heard Basile say "that he had been offered $ 15,000 to kill someone's
wife." Id. at 2-17, -18. Jeffrey Niehaus, a friend of Basile, said Basile told him that the van theft "was
set up through the owner and it was insurance" and that Basile referred to stealing the van as part of
a "double job." Id. at 2r189. Basile also told Niehaus that Basile would be {109 F.3d 1312} receiving
"over $ 9,000" for stealing the Blazer, which Niehaus thought was an "awfully lot" of money for just
stealing a car. Id. at 2-191. Kenneth Robinson, an acquaintance of Basile, testified that Basile said
that "he knew someone who had a van that he wanted to get rid of and have his wife disappear at the
same time." Id. at 4-256. Basile's friend Dennis Williams testified that, after the murder, Basile told
Williams "that he had recently done an insurance job on a van for [murder victim Elizabeth DeCaro's]
husband." Id. at 4-250. In addition, Basile told his half brother Doug Meyer that "he was doing an
insurance job" when Meyer saw the cut-up Blazer in the garage he had let Basile borrow and realized
that the vehicle was implicated in the DeCaro murder. Id. at 4-23. There was no evidence that Basile
received from DeCaro anything more than several hundred dollars before the murder. But there was
evidence that DeCaro was not in good financial shape at the time of the murder, and that he would
not have been able to pay Basile $ 15,000 in cash (or $ 9,000, for that matter) without the proceeds
from the insurance on Elizabeth DeCaro's life.
Having reviewed the evidence according to the standards discussed above, we conclude that the
insurance transactions involving the DeCaro vehicles and items taken from the DeCaro van and
home provide the required nexus between the. mail or facilities in interstate commerce and the
murder-for-hire to sustain Basile's conviction. It does not appear, and the government does not
contend, that the insurance proceeds from the property insurance policies were to be used to pay
Basile for killing Elizabeth, given that the funds were not sufficient to do so. There was a substantial
lien on the van, and the value of the stolen property and the Blazer was not enough to cover the
price of the murder contract. As explained below, the evidence nevertheless was sufficient to prove
that DeCaro filed the property insurance claims, at least in part,, in order to cover the corconspirators'
involvement in the thefts, which themselves occurred as a part of the plot to murder Elizabeth
DeCaro-in the words of Basile, "the package, deal."
After Elizabeth was killed, DeCaro told Elizabeth's sister that the murderer must have been "casing
the joint." Trial Transcript at 3-51. The jury reasonably could infer from that testimony that the theft of
the van was staged to create a scapegoat, that is,, an unknown assailant who just a month before the
murder had "cased" the DeCaro home when stealing the van. As for the Blazer, the evidence was
substantial that the vehicle was stolen, at least in part, to be used as Basile's "getaway" vehicle after
he murdered Elizabeth DeCaro in her home. 8 Thus a reasonable jury could conclude that the thefts
of the vehicles were part of the murder plot, and that the insurance claims were filed, not merely for
the sake of collecting the insurance money, but to give DeCaro the appearance of innocence. 9 The
evidence of the requisite nexus between the use Basile caused to be made of the mail or facilities in
interstate commerce and the murder-for-hire plot, while circumstantial, is sufficient for a reasonable
jury to find the requisite linkage between Basile, the interstate activity of his co-conspirator, and their
contract for the murder of Elizabeth DeCaro.
We hold that the District Court did not abuse its discretion in denying Basile's motion for judgment of
acquittal on the murder-for-hire charges.
B.
DeCaro. like Basile, acknowledges his use of the mails and facilities in interstate commerce but
challenges the sufficiency of the government's proof that such use was in furtherance of the
murder-for-hire plot. The analysis above concerning Basile applies with even greater force, to

A08CASES

9

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

DeCaro. Moreover, {109 F.3d 1313} DeCaro's interstate activity concerning the life insurance policy
provides an additional interstate connection to the murder plot. The government has the benefit of
the logical inference that the purchase of the policy on Elizabeth DeCaro's life was an integral part of
'DeCaro's scheme to have her murdered. Further, the evidence permits the inference that DeCaro,
otherwise lacking the ability to pay Basile for his services, intended to pay him when DeCaro
collected the $ 100,000 on the life insurance policy.
We hold that the District Court did not err in denying.DeCaro's motion for judgment of acquittal, as a
jury could find beyond a reasonable doubt the necessary connection between his use of the mail or
facilities in interstate commerce and the murder-for-hire scheme.
V.
The judgment of the District Court is affirmed.
Footnotes

1
2
The Honorable Stephen N. Limbaugh, United'States District Judge for the Eastern District of
Missouri.
•3
Basile was charged with and found guilty of two counts of mail fraud based on the filing of fraudulent
insurance claims for the loss of the two DeCaro vehicles. DeCaro was charged with and found guilty
of those two counts plus three additional counts of mail fraud based on other fraudulent insurance
claims filed for the loss of personal property stolen from the DeCaro home at the time of Elizabeth's
murder and on a claim filed on a policy insuring Elizabeth's life.
4
The government argues that this claim was not preserved for review by either DeCaro or Basile
because neither renewed his motion for severance at .the close of the government's case or at the
end of trial. (DeCaro did renew his motion at sentencing, but.by then it was too late to,preserve the
issue for review.) Therefore, the government contends, we should review the .District Court's denial
of the severance motions only for plain error. See United States v. Bordeaux, 84 F.3d 1544, 1547
(8th Cir. 1996). In his reply brief, DeCaro suggests that the District Court granted him a "continuing
motion." Reply Brief of DeCaro at 3. As we read the transcript, however, we think it clear that the
court granted the defendants continuing objections to evidentiary rulings, not a "continuing motion"
for severance. See Trial Transcript at 1-3 ("The requests will be denied with the exception that the
objections that are made can be continuing.and can apply not.only to the opening statement of the
government but to the testimony of government as-well:"),(emphasis added). In any event, our
review, whether for plain error or for an abuse of discretion, produces the same result.
5
Wells's stepmother was the foster mother of Doug Meyer,-Basile's half brother. Wells and-Basile
referred to each-other as "brother," and.some of their acquaintances knew them as brothers.
6
The government also argues that several of the instructions given by the court cure ariy prejudice
that may have resulted from the joint trial, citing Zafiro v. United States, 506 U.S. 534, 539, 122 L.
Ed. 2d 317, 113 S..Ct. 933 (1993). The record furnished by the parties is incomplete on this point, as

A08CASES

10

©2019 Matthew Bender & Company, Inc., a member of thc LcxisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

copies of the relevant instructions were not included, so we do not rely on this for our holding.
7
There was evidence at trial that some of the items Basile supposedly removed from the van, and for
which DeCaro claimed and received insurance reimbursement, were found in the DeCaro home
when authorities were investigating Elizabeth's murder.
8
Basile does not "admit" in his brief that he stole the Blazer as he did the van, but the evidence
presented at trial provides overwhelming proof that he did; Therefore, the Blazer's role in the murder,
and the interstate transactions related to its theft, are relevant to the analysis.
9
DeCaro did not file the claims on the Blazer and the property stolen from his home until:after his
release by state authorities following his acquittal on murder charges, but those transactions could be
seen by a reasonable jury as a part of DeCaro's continuing effort to appear innocent of his wife's
murder.

A08CASES

11

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

• f

APPENDIX "B"

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MISSOURI
UNITED STATES OF AMERICA )
)
)
)
)
)

vs.
RICHARD DECARO

PRESENTENCE INVESTIGATION REPORT
Docket No. 1:96CR00005 SNL Defendant No. 001

Prepared For:

The Honorable Stephen;N. Limbaugh
U.S. Distrfct Judge

Prepared By:

Paul H. Boyd
U.S. Probation Officer
Cape Girardeau, Missouri
573/334-9651

Assistant U.S. Attorney
Thomas Dittmeier
1114 Market St., Room 401
St. Louis, MO 63101
(314) 539-2200
Sentence Date:
Offense:

Defense Counsel
Scott N. Rosenblum
7700 Bonhomme
St. Louis, MO 63105
(314) 862-3535

June 21, 1996

Count One: Conspiracy to Commit Murder for Hire,
__________
18 USC 371 - 5 years/$250,000.00 fine,
a Class D felony.
Count Two';
__________
Use of Interstate Commerce During the
Commission of Murder for Hire, 18 USC 1958 and 2 Life Imprisonment/$250,000.00 fine, a Class A felony.
I

Count Three, _F_onr. Five, Six, and Seven: Mail Fraud,
18 USC 1341 and 2-5 years/$250,000.00 fine,
a Class D felony.
Release Status:
Detainers:

On May 31, 1995, released on a $250,000.00
collateral bond, Returned to federal custody
on March 7, 1996.

None

Codefendants:
Related Cases:

Daniel Basile - l:96CR00QO5 SNL
None

Date Report Prepared:

May 1, 1996

Date Report Revised:

ft 1 I

i

a ah

/

/Ji tii! •

i i

k>

RICHARD DECARO

6.
i

van. In addition, the Allstate.Insurance Company paid
DeCaro $1,900.00 in Claim No. 2612626313 relative to
personal property allegedly stolen- from the residence on
March 6, 1992.
19 .

The probation office was unable.'to determine the extent of
any psychological impact upon the DeCaro children and/or the
immediate family members of Elizabeth DeCaro. Elizabeth
DeCaro's murder is the most serious consequence of Richard
DeCaro's scheme.
ADJUSTMENT FOR OBSTRUCTION OF JUSTICE

20.

The probation office has no information to suggest that the
defendant has impeded or obstructed justice.
ADJUSTMENT FOR ACCEPTANCE OP RESPONSIBILITY

21 .

The defendant put the government to its burden of proof at
trial and has continued to maintain his innocence. He has
.in no way exhibited behavior demonstrating acceptance of
responsibility for the instant offense.
OFFENSE LEVEL COMPUTATION

22 .

The 1995 edition of the Guidelines Manual was used in this
case.

23 .

Counts one and two are grouped together for purposes of the
offense level computation pursuant to Section 3D1.2(a).
Counts three through seven are grouped together for purposes
of the offense level computation pursuant to Section
3D1.2 (d) , as the offense level is determined largely on the
basis of .the total amount, of harm or loss.
Counts one and two* Conspiracy to Commit Murder for Hire
and Murder for Hire.

24 .

Base Offense Level: The guideline for violations of
18 USC 371 and 1958 is ultimately found in Section 2A1.1
of the Guidelines Manual and calls for a base offense
level of 43.

25.

Victim Related Adjustment:

None.

26 .

Adjustment for Role in the Offense:

27 .

Adjustment for Obstruction of Justice:

28.

Adjusted Offense Level (subtotal): None

43
0

None.
None.

o
0
43

i-t

I'D?its &

i

I2na

RICHARD DECARO

7.

Counts three through seven:
29.

Base Offense Level: The guideline, for violations of
ia use 1341 is found in Section'2£l.1(a), and calls for
a base offense level of 6.
•

30 .

31.

Mail Fraud.

6

t

Specific Offense Characteristics: Because the loss
exceeded $120,000.00, seven levels are added pursuant
to Section 2F1.1(b)(1)(H).

±2

Specific Offense Chaj^aeteristics: Because the offense
involved more than minimal planning and a scheme to
defraud more than one victim, two levels are added
pursuant to Section 2Fl.l(b) (2) .

+2

32.

Adjustment for Role in the Offense:

33 .

Adjustment for Obstruction of Justice:

34 .

Adjusted Offense Level (subtotal):

35.

Multiple Count Adjustment (see Chanter 3. Part D)

None.

0

None.

0

15
Units

36.

Counts one and two Adjusted Offense Level

43

1

37 .

Counts three through seven
Adjusted Offense Level

15

0

38.

Total Number of Units

39.

Greater of the Adjusted Offense Levels Above: 43

40.

Increase in Offense Level:

__a

41.

Combined Adjusted Offens? Level:

43

42 .

Adjustment for Aaaaptanco of Responsibility:

None.

43 .

Total Offense Level:

44 .

Chapter Four Enhancement:

45.

Total Offense Level:

1

None.

11
1
11

None.

OFFENSE BEHAVIOR NOT PART OF RELEVANT CONDUCT
4 6.

*

0

11

tV

i

11?

*.. •

RICHARD DECARO

COS"
12..

Pursuant to Section 5Dl.2(a)(2), the terra of supervised
release for each of counts one,.three, four, five, six, and.
seven shall be at least two years but not more than three
years.
PROBATION

•

78.

Statutory Provisions: As to count two, the defendant is
ineligible' for probation pursuant to 18 USC 3561(a) (1) .

79 .

As to each of counts,'one, three, four, five, six, and seven,
the defendant is ineligible for probation by statute,
pursuant to 18 USC 3561 (a)(3).

80.

Guideline Provisions: As to count two, the defendant is
ineligible for probation pursuant to Section 5Bl.l(b) (1) .
As to each of counts one, three, four, five, six, and seven,
the defendant is ineligible for probation pursuant to
Section 5B1.1(b)(3) and .Application Note 2.
FINES

81.

Statutory Provisions: As to each of counts one, two, three,
four, five, six, and seven, the maximum fine is $250,000.00,
pursuant to 18 USC 3571(b)(3).

82.

A special assessment of $50.00 is mandatory as to each of
counts one, two, three, four, five, six, and seven, for a
total of $.350.00, pursuant to 18 USC 3031.

83 .

Guideline Provisions: The fine:range for this offense is
from $25,000.00 [Section 5E1.2(c)(1)] to $250,000.00
[Section 5E1.2(c) (2)] .

84.

Subject to the defendant's ability to pay, the Court shall
impose an additional fine amount that is at least sufficient
to pay the costs to the government for any imprisonment,
probation, or term of supervised release ordered [Section
5E1.2(i)] . The most recent advisory from the-Administrative
Office of the United States Courts, dated March 10, 1995,
suggests that a monthly cost of $1,779.33 be used for
imprisonment, a monthly cost of $195.30 be used for
supervision, and a monthly cost of $1,183.08 be used fof
halfway house placement-.
RESTITUTION

85.

Statutory Provisions: Restitution pursuant to the Victim
and Witness and Protection Act of 1982 is applicable, As to
counts one and two, the loss of-Elizabeth DeCaro's life is
not calculable. As to counts three through seven, the

‘fi

r

APPENDIX "C”

9b'2?VfsFILED
AUG-5199jL/

i

1

U S. DISTRICT COml
UNITED STATES DISTRICT COURT FOR- TH%STERR DISTRICT QE WO
EASTERN DISTRICT OF MISSOURI, SOUTHEAST DIVISION LOUIS

2
UNITED STATES OF AMERICA, •
3
Plaintiff,
4
v.
5
RICHARD DECARO,
6
Defendant.
7

)
)
)
)
)
)
)
)
)

No. 1:96CR005SNL
VOLUME 10

8

SENTENCING HEARING

9

BEFORE'THE HONORABLE STEPHEN N. LIMBAUGR
UNITED STATES DISTRICT JUDGE

10
JUNE 21, 1996
11
12

APPEARANCES:

13

For Government:

MR. THOMAS E. DITTMEIER, AUSA
MR. HOWARD MARCUS, AUSA
Office of U.S. Attorney
1114 Market Street
St. Louis, MO 63101
314-539-2200

For Defendant:

MR. N.' SCOTT ROSENBLUM (For Decaro]
MS. . SUSAN KISTER
Wittner and Poger
7700 Bonhomme Avenue., Suite 400
St. Louis, MO 63105
314-862-3535

REPORTED BY:

PATTI DUNN WECKE, RMR
Official Court Reporter
#813 U.S. Courthouse
1114 Market Street
St. Louis, Missouri 63101
(314) 621-276*7

-i.

14
15
2n

16

a
2

17

S
oO
d

18
19

4

5CL
0.
W

20

C

2UJ

21

£

22

8

23

S
■ o

s .
o

24
25
3

PRODUCED BY COMPUTER AIDED TRANSCRIPTION
*

*

t

.

i -

CERTIFICATE

1
2
3

I, Patti Dunn Weeks, Registered Merit Reporter,

4

hereby certify that I am a duly appointed, qualified, and

5

acting official court reporter of the United States

6

District Court for the Eastern District of Missouri.
I further certify that the foregoing is a true and

7
8

accurate transcript of the proceedings held in the

9

above-entitled case, and that said transcript is a true and

v

correct transcription of iny stenographic notes.

T

10

I further certify that this transcript contains

11

2

l

•

inclusive and that this reporter takes

12

pages 1 —

13

no responsibility for missing or damaged pages of this

14

transcript when same transcript is copied, by' any party

15

other than this reporter.

.

t

day of

Dated at St . Louis, Missouri, this

16

I

a

_______ , 1996.

17

a

d
U
6

5&
0V)

5
tE
o

18
19

ML

(a

PATTI DUNN WECKE, RMR
Official Reporter

20
21

w

22

SOT
2
5
u

23

2

24

S

25
»

■

t

■

1

2

1
2

(THE FOLLOWING PROCEEDINGS WERE HAD ON JUNE 21,
1996, IN OPEN COURT, AND WITH DEFENDANT PRESENT:)

3

THE COURT:

We are here for sentencing in the

4

case of United States versus Richard DeCaro.

5

will come forward.

6

(COUNSEL AND DEFENDANT COMPLY)

7

THE COURT:

The Government appears by Assistant

8

United States Attorney Thomas Dittmeiar and Howard

9

Marcus.

10

The defendant Richard DeCaro appears in person

and by his attorney Scott Rosanblum.
I have the presenterica investigation report.

11
12

The addendum to the report indicates that neither the

13

Government nor the defendant have filed objections to the

14

report.

15

to file?

Mr. Ros.anblum, are there any objections you wish

:
:

16

MR. ROSENBLUM:

",

i

17

THE COURT:

i
i
l

18

i

f
i

J

i
!■

1

l

2

Parties

Mr. DeCaro, have you had an

opportunity to review a copy of the report?

19

THE DEFENDANT:

20

THE COURT:

21

No, Your Honor.

Yes, Your Honor.

Do you have any corrections you

wish to make to it?

22

THE DEFENDANT:

No,. Your Honor.

23

THE COURT: . I am ready to consider sentencing

24

Mr. DeCaro and I'11 be glad to hear from you, Counsel,

25

and then from Mr. DeGaro if he wishes to make a
>

.)

3

1

statement.
MR. ROSENBLUM:

2
3

allocution per se, the only thing I would ask is to let

4

the record reflect, and I'm asking the Court to

5

reconsider the motion for double ‘ jeopardy that was filed

5

before this case, also the motion for severance that-was

7

filed before this case.
The Court had an opportunity to see the trial,

8

!

Your Honor, I don’t have

9

the Court had an opportunity to witness Mr. Basile who

10

was on holiday from death row during the course of this

11

trial, and saw what I believe was 'his disdain for the

12

system*

13

antagonistic defenses than this particular case, the

14

defense of Mr. DeCaro and the defense of Mr. Basile, arid

15

I think that that tainted this trial.,

16

the Court to reconsider that motion.

i

And I can't imagine a case where there was more

;

And I would ask

\
1

17

i

18

Mr. Basile was on .holiday when we was facing another

19

murder■charge.

THE COURT':

First of all, I don't think.that

5

1
SU

20

l
!s

MR. ROSENBLUM:

Your Honor, I was just making

21

reference to his demeanor during the course of trial and

22

particularly during jury selection where he didn't seem

23

to be particularly interested in the seriousness of the

24

proceedings, that was just my own personal observation.

!i

c

5n
5ft

j

?3

25

THE COURT:
f

Well, it is my opinion that neither
>

— o'

4

1

defendant in this case was jeopardized by having the case

2

tried simultaneously as to each defendant.

3

ahead of the trial and I feel it having•conducted the

4

trial that there was no prejudicial error in having these

5

two defendants tried at the same time before the same

6

jury.

7

was proper to try them in that capacity and X will deny ‘

8

your motion to reconsider this matter.

So I will continue to maintain 'my' position that it

MR. ROSENBLUM:

9

THE COURT:

10

Mr. DeCaro, do,you have any comment

THE DEFENDANT:

12
13

Honor.

14

very much.

15

anything like this.

There' s no way on God' s earth I could ever do
That’s all I have to say.

16

THE COURT:

Sto

17

MR. DITTMEIER:

18

THE COURT:

Mr. Dittmaiar?

Mr. Marcus?

I have no statement, Judge.

Well, Mr. DeCaro, the jury didn’t

19

believe you and I don't believe you.

20

concerned you are guilty.

21

act, it was a cowardly act.

5Cl
(A

Just that I'm innocent, Your

I did not commit this crime. ' I loved Elizabeth

S3n

CL

Thank you, Your Honor.

you wish to make before I sentence you?

ii

S2

I felt that

As far as I'm

It' was not only a despicable

UJ

g
ui

a.

Pursuant to the Sentencing Reform Act of 1984,

s

22

5

23

it is the judgment of the Court that the defendant

24

Richard OeCaro is hereby committed to the custody of the

cn

£O
O

Bureau of Prisons to be imprisoned for a terra of life.

25
x

4

w

5

1

This term consists of a term of life as to' Coiint 2 and 60

2

months as-to each of Counts 1, 3* 4, f>, 6, and 7.

3'

these terms shall run concurrently; there is an aggregate

4

term of iraprispnment of life.

All of

Should the- defendant ever be released from

5
6

imprisonment, he shall be placed on a period of

7'

supervised release for a term of three years,

8

consists of terms of three years as to each of Counts 1

9

through 7, and all of these shall run concurrently with

10

an aggregate term of supervised release of three years.

This term

Within 72 hours of, release from custody of the

11
12

Bureau of Prisons, the defendant shall report in person

13

to the probation office in the district to which he is

14

released.

15

with the standard conditions that have been adopted by

2

I3

16

the Court.

ft

17

dU

18

of $50 as to each of the seven counts involved, or a

19

total of $350, and I levy that assessment.

B2
«0

£(L

i
CO
bl

£

§

tC

SV)
5

£U

j£
O

It is mandated that he pay a special assessment

Other than that' sum, I will determine he does

21

not have sufficient funds with which to pay the minimum

• 22

fine in this case and- i will waive the requirement that

24
25

. x.

While on supervised release he shall comply

20

23

5

he pay a fine.
It is the opinion of the Court that the
sentence that I have just set. out does properly address
♦

i

%.

6

-!

1

the sentencing objectives of punishment/ general

2

deterrence, and incapacitation,

3

those reasons as well as for the additional reasons given

4

to the Court by the probation officer in its

5

recommendation, as well as for the other comments I have

.6

made in connection with this sentencing!

I levy the sentence for

Now, Mr, DeCaro, I'm sure you are aware and

7
8

have discussed this with your attorney, you have the

9

right to appeal your jury verdiat, my judgment on the

10

jury verdict, and the sentence that I've j.ust levied

11

against you.

12

appeal?

You understand you have the right to
*v

c

2
3t&

s

d

$

«0

ffia

13

THE DEFENDANT:

14

THE COURT:

Yes, sir.

And if you do not have the funds

15

with which to employ an attorney/ then an attorney will

16

be- provided for you to assist you in an appeal.

17

understand you have all those rights?

18

THE DEFENDANT:• Yes, I do.

19

THE COURT:

Do you

Anything further we need to

consider Counsel?

■s

20

11
§a

21

MR. DITTMEIER:

22

THE COURT: • Defendant will continue to be

cn
C

85

3
SO

I
O

23
24

I have nothing further, Judge.

We'll be in recess.

remanded to custody.

(COURT ADJOURNED)

25
1

?

>

APPENDIX "D"

VERDICT

We, the jury, find the defendant Richard DeCaro not
guilty.'

FOREPERSON

a

!!
:

■SEP lu.
f, 1334
So-0 Hi'/

£

sr c^^x;.y
Tr=-“! '

T

-f—“v wl-V

LJ

P

{ !

!!
!

i

'•'•-•r f- 4 1.994
SJrS
s

■

JP’ <Jr-v.ni\s-Lb v.

V

(Page / of cj )

*.

STATE' OF MISSOURI v.
RICHARD DECARO
INSTRUCTION NO.

?

?

!
v.

r
i

No, 92-650

-Z

Unless you find and believe from the evidence beyond
reasonable

doubt

that

the

defendant

caused

the ^ death

a
of

i

*
*
\

Elizabeth DeCaro by hiring Daniel Basile to shoot her, then you

-

must find the defendant not -.guilty of murder in the
degree.

•;
:
;
> •

ir

h
ly

f ■

r
f.

l

I.
I
.V
5

*
;
i
! .
!
:
4.

(Page £ of 4)

first

INSTRUCTION NO
. Unless you find and believe

.p

from, the evidence beyond, a

\

reasonable doubt that the defendant aided or encouraged Daniel A.
Basile in causing the death of Elizabeth A. DeCaro by shooting
her, then you must find the defendant not guilty of murder in the
second degree under Instruction No.

MAX-CR 3d 313.02 Converse
Submitted by the Defendant

(Rage .3' of ^ )

, 1, 1

INSTRUCTION NO. ^
Unless

you find and believe

from the

evidence beyond a

reasonable doubt that the defendant aided or encouraged Daniel A.
Basile in the commission of the offense of burglary in the first
degree as submitted in Instruction No.

/3 which resulted in the

death of Elizabeth A. DeCaro7 then you must find the defendant
not guilty of murder in the second degree under Instruction No.

if-

MAI-CR 3d 313.02 Converse
Submitted by the Defendant

(Page ^ of H )

«

APPENDIX "E"

,

4

' 1

U.S. V. RICHARD DECARO & DANIEL BASILE

NQ* 1j 9 6CR5 SNL

INSTRUCTION NO. '?/
The essential elements of the crime of murder, for hire as
charged against each defendant in Count II. are as follows:
One:

The defendant used or caused another to use the
mail, or used or caused another to use any facility
in interstate commerce.

Two:

The defendant did so with the' intent that a murder
be committed in violation of the laws of the state
of Missouri.

Three:

The defendant did so as consideration for the
receipt of, or as consideration for a promise or
agreement to pay, anything of pecuniary value.

It is not necessary for the United States to prove that any
use

of

the

mail

or

facilities

in

interstate

commerce

was

contemplated or planned at the time that the course of activity
began, or that the defendant under consideration Jcnew he or someone
else would actually use • the mail or facilities in interstate
commerce as part of the activity;

It is sufficient to establish

this element of the crime if the mail or a faaility in interstate
commerce was used as part -of the course of activity charged in
Count II and that one of the reasons for this use was to further
the activity described in Count II.
A

telephone

communication

from

one

state

to

another

constitutes the use of a facility in interstate commerce.

For

purposes of these elements, however, a mailing from one location to
another within the State of Missouri constitutes a ufie of the
mails.

O
•w-

*

d

/ V

It is not necessary for the United States to prove that a
contract for the murder was in existence at the time of the mailing
or telephone communication. ‘ Nor is it necessary for the United
States to prove that the consideration for the murder had been
provided at the time of the mailing or telephone communication.
The term Mpecuniary value11 means money or any item that the
person receiving or promising to pay considers
something.

to be

worth

It is not necessary for the United States to prove that

money or a similar item was actually exchanged or delivered.
you are also instructed that \aws of the State of Missouri/
Section 565.020 of the Missouri Revised Statutes, provides that "a
person commits the crime of murder in the first degree if he
knowingly causes the death of another person after deliberation
upon the matter."

The laws of Missouri further provide that

"deliberation means cool reflection for any length of time no
matter how brief."
• 18 U.S.c; §1958(a)
United States v. McGuire. 45 F.3d 1177,. 1186-1187 (8th Cir. 1995)
United States v. Sanchez. 992 F.2d 1143> 1158-1159, ref er denied,
3 F.3d 366 (11th Cir. 1993)> cert, denied'114 S.Ct. 1057 (1994)
(summarizes elements):
United States v. Razo-Leora. 961 F.2d
(mail or use of interstate facility is
a result, specific intent heed only be
offense of murder). See also. United
791, 794-795 (5th Cir. 1989)

1140,‘ 1148 (5th Cir. 1992)
jurisdictional only and, as
proven as to the underlying
States v. Edelman. 873 F.2d

United States v. Ellison. 793 F.2d 942, 950 (8th Cir. 1986), cert.
denied. 479 U.S. 937 (1986) (proof of travel in Section 1952
prosecution need only be in conjunction with the criminal conduct)
United States v. Ransbottom. 914 F.2d 743, 745-746 (6th Cir.),'
cert, denied. . Ill S.Ct. 439 (1990) (contract need not be in
existence at time mailing or telephone communication was made)

! ■

/

APPENDIX "F"

• J

8-165
1

now.

2

MR. DITTMEIER:

3

MS. KISTER:

I have none.

With respect to Instruction 31/

4. ■

the elements that are required for murder for hire.

5

like the record to reflect that we interpose at this time

6

an objection to that instruction,, on the basis that it

7

misstates the law and mischaxacterizes the statute on

,8.

which it's based.

9

elements of mail fraud, I would interpose an objection to

And with respect to Instruction 33 the

10

that instruction at this time, in addition to the

11

objection I made yesterday, which pertained to the

12

omission of language of that instruction, as well as it

• 13

misstates the statute, misstates the law.

object to the jury being given the indictment to take

15

back into the deliberations.

16

3a

.17

o'
o
o'

18

closing argument for the jury.

19

MR. FLYNN;

a«»

S
$a.

1

And finally ,1

14

a

9s

I'd

20

We would submit that this basically restates .
the Government's case and reinforces Mr. Dittmeier' s

I would join in all three of those

objections, Your Honor.
THE COURT;

All' right.

Very well.

The

8

21

E
2

22

objections "will be overruled.

23

properly state the law in connection with the area to

24

which the instruction is intended to apply.

tu

az

ns

§

25

MR. FLYNN:

I think the instructions

I would also make the motion to

i .
4

.y

1

APPENDIX G

I\

III. Conclusion United States v. Young, 753 F.3d 757, 783 (8th Cir. 2014)
Based on the foregoing, we affirm the judgment of the district court. KELLY, Circuit Judge, concurring.
Young and Mock were charged with two federal crimes: (1) using facilities of interstate commerce in the commission of a
murder-for-hire (Count 2); and (2) "conspiring] to do so" (Count 1), both in violation of 18 U.S.C. § 1958. While I concur
in the court's judgment to affirm these convictions, I write separately because I sense an increasing misunderstanding of the
relevant statute at issue in this case.
"Section 1958(a) is not a murder statute; it is a carefully-drafted federal criminal law of constitutionally limited
scope." United States v. Delpit, 94 F.3d 1134. 1150 (8th Cir. 1996). Section 1958 reads as follows: Whoever travels in or
causes another (including the intended victim) to travel in interstate or foreign commerce, or uses or causes another
(including the intended victim) to use the mail or any facility of interstate or foreign commerce, with intent that a murder
be committed in violation of the laws of any State or the United States as consideration for the receipt of, or as consideration
for a promise or agreement to pay, anything of pecuniary value, or who conspires to do so, shall be [punished according to
this statute], 18 U.S.C. § 1958(a). As we have previously explained:
This statute is relatively straightforward, both in what it prohibits and in what it does not reach. It does not prohibit
murder or attempted murder. Instead, it outlaws using interstate-commerce facilities with the intent that murder-for-hire
be committed. Once the interstate-commerce facility is used with the required intent the crime is complete. One who
travels or causes another to travel in interstate commerce with the necessary murderous intent need not dp anything else to
violate the statute. See United States v. McGuire, 45 F.3d [1177,] 1186-87 [(8th Cir. 1995)]. It is clear, moreover, that a
defendant can violate § 1958(a) without actually hurting or killing anyone, because the statute provides for enhanced
punishment when death or injury results from the defendant's violation of the statute. If there were any doubt, it would be
dispelled by the clear legislative history:The gist of the offense is the travel in interstate commerce or the use of the
facilities of interstate commerce or of the mails with the requisite intent and the offense is complete whether or not the
murder is carried out or even attempted.
Delpit, 94 F.3d at 1149-50 (quoting S.Rep. No. 225, 98th Cong., 2d Sess. 306 (1984), reprinted in, 1984 U.S.C. Cong. &
Admin. News 3182, 3485). Thus, the elements of Count 2, as relevant to this case, are that a defendant (1) used a facility in
interstate commerce, or caused another to do so; (2) with the intent that a murder be committed; (3) "as consideration for a
promise or agreement to pay," i.e., "for hire." Id. at 1149. [753 F.3d 785] In this case, the government started its closing
argument by addressing the elements of the offense. After listing a few examples of the use of a facility in interstate
commerce, including the use of a telephone or a debit card, the government argued to the jury: "So clearly interstate facilities
have been used in furthering this crime." But Young and Mock were not charged with using a facility of interstate commerce
"in furtherance of' the crime of murder or murder-for-hire. Rather, they were charged with using a facility of interstate
commerce, with the requisite intent.2 To the extent some of our cases suggest otherwise, I respectfully submit
that Delpit provides the more accurate reading of the statute. Compare Delpit, 94 F.3d at 1149-51, with United States v.
Basile, 109 F.3d 1304, 1310-13 (8th Cir. 1997), and United States v. Mueller, 661 F.3d 338. 345-47 (8th Cir.2011).2
Footnotes
8. The government also argued that "every phone call to the insurance companies" would be sufficient to establish the
element of "use" beyond a reasonable doubt. Any phone call made after the murder, however, cannot be the "use" that
amounts to the crime. Logically speaking, a person cannot "use" a facility of interstate commerce with the requisite intent
after the murder has occurred.
9. Similarly, the conspiracy charged in this case was not a simple conspiracy to commit murder or even to commit a
murder-for-hire, which happens to involve the use of a facility of interstate commerce. "To prove a conspiracy, the
government needed to prove an agreement, between at least two people, the objective of which was to violate federal
law." Delpit, 94 F.3d at 1151. Under § 1958, the object or illegal purpose of the charged conspiracy is to use a facility of
interstate commerce with the intent to commit a murder-for-hire. See id. (reversing § 1958 conspiracy conviction because
"[t]he government presented no evidence suggesting that Lynn conspired to cause [another person] to travel, or that she
conspired with [another person] to travel, with the intent that a murder-for-hire be committed" (emphasis added)).

<

